No.

IN THE
SUPREME COURT OF THE UNITED STATES

Cash Wallace Pawley, Sr. - PETITIONER
vs.
State of Florida - RESPONDENT(S)
PROOF OF SERVICE
I, Cash Wallace Pawley, Sr., do swear or declare that on this date,
, 2021, as required by Supreme Court Rule 29, I
AprW
have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS AND PETITION FOR A W T OF CERTIORARI on each party to
the above proceeding or that party’s counsel, and on every other persons required
to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
*Not
required
for
pro
individual^)

se

I declare under penalty of perjury that the foregoing is true and correct.
, 2021
Executed on
-30 T*

6L S

Uj '

(Signature)

incarcerated

